No:

IN THE
SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2019

GARRY GRACE,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF SERVICE

I certify that on this 30th day of July, 2020, in accordance with SUP. CT. R. 29,
copies of the (1)-Petition for Writ of Certiorari, (2) Motion for Leave to Proceed In
Forma Pauperis, (3) Certificate of Service, and (4) Declaration Verifying Timely
Filing, were served by third party commercial carrier for delivery within three days
upon the United States Attorney for the Southern District of Florida, 99 N.E. 4th
Street, Miami, Florida 33132-2111, and upon the Solicitor General of the United
States, Room 5614, Department of Justice, 950 Pennsylvania Avenue, N.W.,

Washington, D.C. 20530-0001.

MICHAEL CARUSO

FEDERAL PUBLIC DEFENDER
Fort Lauderdale, Florida By:___s/Robin J. Farnsworth
July 30, 2020 Robin J. Farnsworth

Assistant Federal Public Defender

1 East Broward Blvd., Suite 1100
Fort Lauderdale, Florida 33301-1100
Telephone No. (954) 356-7436
